                                  News From
                        The Office of Inspector General
                     Corporation For National And Community Service




Ex-Program Director Gets Stiff Sentence

A former Georgia Senior Corps program director has been convicted of fraud and
embezzlement of more than $100,000 and faces more than two years in prison
thanks to the joint efforts of the Office of Inspector General (OIG) and officials of
the Corporation for National and Community Service (Corporation).

Alma Williams, former executive director of the Eastside Training Academy in
Valdosta, GA., was found guilty in Federal Court on June 19, 2006, of six counts
of Theft of Federal Funds. She was sentenced on September 18, 2006, to 33
months in jail plus three years of probation, fined $100,536.88 and assessed
$600 in court costs.

Williams, who had received Corporation Senior Corps grants to operate Foster
Grandparent and Retired Senior Volunteer Program units, embezzled more than
$100,000 in Federal taxpayer dollars for her personal use and to operate
business ventures.

Robert J. Walters, Assistant Inspector General for Investigations, had worked on
the case for several years after receiving an anonymous tip via the OIG’s Fraud
Hotline. He traveled to Valdosta to see justice served and, throughout the
weeklong trial, sat at the prosecution table, aiding Assistant U.S. Attorney Jim
Crane.

Besides building a strong case and testifying at the trial, Walters helped to
prepare prosecution arguments and exhibits and lined up a number of
Corporation officials as expert witnesses.

Suzanne Fahy, Executive Director of Senior Corps, explained the Corporation’s
programs and regulations to the jury. Daryl James, the Corporation’s Georgia
State Director and Southern Area Manager, recounted his interactions and his
concerns with Alma Williams, which led him to shut down her program in 2002.
Veda Williams, Director of the Corporation’s Southern Service Center, detailed
Alma Williams’ questionable financial transactions involving Federal funds.

“We appreciate the cooperation and assistance that Corporation officials gave us
in this case,” said Deputy Inspector General Robert Shadowens. “The OIG’s
primary mission is to support the Corporation and to work with them, whenever
possible, in our efforts to detect and prevent waste, fraud and abuse.”
